U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Andrea Lea v. United States, No. 19-1285
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 8, 2020.
The government’s response is now due, after one extension, on July 13, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 17, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1285
LEA, ANDREA, ARKANSAS STATE AUDITOR
USA, ET AL.

DAVID H. THOMPSON
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
DTHOMPSON@COOPERKIRK.COM

